January 15, 2004
Audit Report No. 04-002


The FDIC’s 2003 Service Line Rates




             AUDIT REPORT
                                           TABLE OF CONTENTS

BACKGROUND .......................................................................................................... 2
    Service Line Rates............................................................................................ 2


RESULTS OF AUDIT................................................................................................. 7

FINDING A: SERVICE LINE RATE METHODOLOGY ..................................... 8
     Benchmark and Budgeted Rates .................................................................... 8
     Program Maintenance Costs..........................................................................10
     Excess Revenue................................................................................................11
     Recommendations ...........................................................................................12

FINDING B: OTHER SERVICE LINE RATE-SETTING MATTERS ...............13
     Variance Analysis and Service Costing System Reports.............................13
     Service Costing System Training...................................................................13
     Recommendations ...........................................................................................14

CORPORATION COMMENTS AND OIG EVALUATION.................................14

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY..........................17

APPENDIX II: FDIC RECOVERY PRINCIPLES ................................................20

APPENDIX III: CORPORATION COMMENTS ..................................................21

APPENDIX IV: MANAGEMENT RESPONSES TO
             RECOMMENDATIONS ...............................................................23

TABLES
    Table 1: 2003 Service Lines and Related Billing Drivers and Rates........... 3
    Table 2: Budgeted and Benchmark Recovery by Service Line ................... 9

FIGURE
     Figure 1: Service Line Rate-Setting Process Flowchart............................... 4
Federal Deposit Insurance Corporation                                                                     Office of Audits
801 17th St. NW Washington DC, 20434                                                         Office of Inspector General



DATE:                                  January 15, 2004

MEMORANDUM TO:                         Mitchell Glassman, Director
                                       Division of Resolutions and Receiverships

                                       Fred Selby, Director
                                       Division of Finance

FROM:                                  Russell A. Rau [Original signed by Stephen M. Beard for Russell A. Rau]
                                       Assistant Inspector General for Audits


SUBJECT:                               The FDIC’s 2003 Service Line Rates (Audit Report Number 04-002)


    This report presents the results of the Federal Deposit Insurance Corporation (FDIC) Office of Inspector
    General’s (OIG) audit of the FDIC’s development of service line1 rates for calendar year 2003. (Note:
    Service lines group services performed by the FDIC in the management and liquidation of failed financial
    institutions into similar line items by the type of service that is performed.) The FDIC uses service line rates
    to bill FDIC receiverships2 (Note: Receiverships are failed financial institutions for which the FDIC has
    been appointed as receiver to manage the liquidation (asset sales, loan servicing, claims resolution, etc.) of
    the institution’s remaining assets.) for administrative expenses incurred by the FDIC that cannot be readily
    attributed to a specific receivership. Service line rates for 2003 were developed by the Director, Division of
    Resolutions and Receiverships (DRR), and were submitted on March 13, 2003 for approval. The service line
    rates were approved by the Deputy to the Chairman and Chief Financial Officer on March 19, 2003.
    The objective of this audit was to assess the adequacy of the FDIC’s process for developing its 2003 service
    line rates for the Service Costing Billing System (SCBS).3 (Note: The SCBS is the billing component of the
    Service Costing System used by the Division of Finance to capture and report budgeted and actual expense
    data for the FDIC. The SCBS applies standard rates to workload volumes extracted from various FDIC data
    systems to calculate total charges to receiverships for services provided by the FDIC. ) Specifically, we
    determined whether 2003 service line rates were fair and reasonable, accurately calculated, and adequately
    supported. Although the FDIC uses service line rates as a cost accounting tool, the audit focused on the
    FDIC’s use of service line rates to calculate receivership billings. From January 1, 2003 to October 31, 2003,
    the FDIC billed 120 receiverships a total of $33,142,476 using the approved FDIC service line rates.
    Additional details on our objective, scope, and methodology are presented in Appendix I.


1
  Service lines group services performed by the FDIC in the management and liquidation of failed financial institutions into similar
line items by the type of service that is performed.
2
  Receiverships are failed financial institutions for which the FDIC has been appointed as receiver to manage the liquidation (asset
sales, loan servicing, claims resolution, etc.) of the institution’s remaining assets.
3
  The SCBS is the billing component of the Service Costing System used by the Division of Finance to capture and report budgeted
and actual expense data for the FDIC. The SCBS applies standard rates to workload volumes extracted from various FDIC data
systems to calculate total charges to receiverships for services provided by the FDIC.
BACKGROUND

When an FDIC-insured institution fails or is closed by a federal or state regulatory agency, the
FDIC is appointed as receiver. The FDIC’s Receivership Management Program, one of the
FDIC’s three main business lines, includes performing the closing function at the failed
institution, maintaining the value of and liquidating any remaining failed institution assets, and
distributing any proceeds of the liquidation to those with approved claims of the receivership.

When the FDIC incurs expenses on behalf of a receivership, the FDIC charges these expenses
directly to the receivership. For example, the FDIC may bill receiverships directly for contractor
personnel, equipment, and certain travel costs for work that is attributable to a particular
receivership. However, many expenses incurred by the FDIC cannot be attributed directly to a
single receivership. The FDIC implemented the SCBS in January 2002, using service line rates
as a mechanism to bill the active4 receivership population for these expenses. The FDIC is
authorized under Section 11 of the FDI Act, codified to 12 U.S.C. §1821(d)(11), to use amounts
realized from the liquidation or other resolution of any insured depository institution to pay
administrative expenses of the receiver. Section 12 of the Code of Federal Regulations (12
C.F.R. §360.4), which implements 12 U.S.C. §1821(d)(11), requires the FDIC to charge only
those expenses that are “necessary and appropriate” to receiverships (see Appendix I). This
regulation also gives the FDIC discretion in determining expenses that are billable.

Service Line Rates

Service line rates are developed on a variety of bases (per hour, per unit, etc.), depending on the
service line billing drivers.5 For the 2003 billing year, the FDIC refined service lines and related
billing drivers that had been established in 2002 and established new rates. As shown in table 1,
the 2003 service lines include: franchise marketing, customer service, valuation, closing,
financial services, asset sales, subsidiaries management, asset management, litigation,
receivership claims, and receivership oversight. Five of the 2003 service lines were further
divided into subservice lines, resulting in a total of 21 billing rates.




4
  Active receiverships are those in the process of being liquidated. Once the receivership has been substantially
liquidated, it is placed in terminated status and becomes inactive. Inactive receiverships are not billed for
administrative expenses.
5
  Billing drivers are the units of measure used to determine the volume of activity for a particular service line such as
number of hours worked, number of claims processed, or number of sales transactions.

                                                           2
Table 1: 2003 Service Lines and Related Billing Drivers and Rates
Service Line                    Billing Driver                  Service Line Rate
Franchise Marketing                   Percent of Sales Price            10 percent to first million
                                                                        8 percent to second million
                                                                        6 percent to third million
                                                                        4 percent thereafter
                                                                        $50,000 minimum fee
Customer Service                      One-Time Fee                      Variable based on Dollar
                                                                        Value
Valuations                            Labor Hours                       $149 per hour
Closing Activities                    Labor Hours                       $124 per hour
Financial Services                    Labor Hours                       $135 per hour
Asset Sales
   Loan Sales                         Basis Points per Sale             58 Basis Points
   Owned Real Estate Sales            Basis Points per Sale             504 Basis Points
   Security Sales                     Percent of Sales Price            50 Basis Points
   Other Asset Sales/Managed          Percent of Sales Price            118 Basis Points

Subsidiary Management                 Labor Hours                       $147 per hour
Asset Management
  Loans Managed                       Percent of Outstanding Balance    6.25 percent
  Owned Real Estate Managed           Flat fee per Property             $1,000 per Property
  Securities Managed                  Percent of Outstanding Balance    1.75 percent
  Contract Oversight                  Percent of Invoice to             10.50 percent
                                      Receivership
Litigation/Investigations
    Receivership Litigation           Labor Hours                       $189 per hour
    Investigations                    Labor Hours                       $136 per hour
    DIR Research                      Labor Hours                       $105 per hour
Receivership Claims
    Asset Claims                      Per Claim Processed               $315 per claim
    Other Receivership Claims         Per Claim Processed               $2,815 per claim
Oversight Operations
     Receivership Oversight           Labor Hours                       $138 per hour
     Employee Benefits                Number of Participants            $34 per participant
Source: FDIC 2003 Service Line Rates Memorandum dated March 13, 2003.

Figure 1 below depicts the FDIC’s rate-setting process. Each service line is assigned a Service
Line Team (SLT) and is managed by a Service Line Owner (SLO). The SLTs are responsible for
developing service line rates for their respective service line.




                                                    3
                            Figure 1: Service Line Rate-Setting Process Flowchart
                                  SLTs/SLOs assigned to each service line obtain
                                  budgeted costs from the Service Costing System
Workload Assumptions                                                                    Benchmark Data

                                          SLTs develop service line rates



                                               SLTs prepare rate proposal



                                     SLO submits rate proposal to DRR Director
                                     for approval




                                                       DRR
                                                      Director
                       No                             Approves




                                                               Yes
                                    DRR Director submits rates to CFO for approval



                                                                                       Rates used for
                                                      CFO                    Yes       receivership
                                                     Approves                          billings



                                                                                     Variance analysis
                                                                                     performed by SLTs
                                                                                     during the year




   Source: FDIC Budget and Business Planning Procedures.




                                                           4
SLOs are in DRR with the exception of the Litigation SLO who is in the Legal Division. The
SLO is responsible for coordinating and managing the activities of the service line including
proposing service line workload assumptions, budgets, and service line rates to the DRR
Director. The DRR Director approves the proposed service line rates and submits them to the
FDIC Chief Financial Officer for approval. After receiving the Chief Financial Officer’s
approval, the service line rates are programmed into the SCBS for use during the calendar year.

The Division of Finance (DOF) uses the Service Costing System to capture and report budgeted
and actual expense data for the FDIC. DOF makes service line workload and expense
information from this system available to the SLTs on a monthly basis. To support FDIC
quarterly variance reporting requirements, the SLTs provide a summary of the quarterly and
year-to-date variance activity for their respective service lines to the affected FDIC division
directors. The SLTs must also evaluate variances between budgeted and actual workload and
between forecasted and actual receivership billings. Each month, DOF uses the service line rates
to calculate receivership bills. The service line rates are multiplied by the related service line
workload driver. For example, a monthly charge for asset claims activity would be calculated by
multiplying the service line rate of $315 by 100 asset claims processed on behalf of that
receivership, resulting in a total bill of $31,500.

In preparation for establishing 2003 service line rates, the FDIC contracted with the American
Productivity and Quality Center (APQC) of Houston, Texas. APQC conducted an assessment of
FDIC service lines and benchmarks, taking into consideration known industry standards and
practices. APQC established market-based benchmark rates for each service line based on
surveys of, or interviews with, private-sector companies or through a process known as Activity
Based Costing.6 Activity Based Costing was used for those service lines for which adequate
market-based benchmarks could not be established. APQC used Activity Based Costing to
measure and then price out all the required resources used for activities that support the
production and delivery of the service line products and services. One of the goals of the APQC
effort was to assist in identifying justifiable and supportable benchmark rates for billing FDIC
receiverships.

The FDIC also independently calculated service line rates based on budgeted cost. Specifically,
DRR SLTs calculated budgeted rates for each service line by (1) taking the total budgeted
amount for the respective service line, (2) subtracting costs that were billed directly to the
receiverships, and (3) dividing that amount by the projected unit workload for the service line.
DRR SLOs were then presented with the budgeted rates and the APQC-identified benchmark
rates for review and comment. Based on input from the FDIC Legal Division, which advised
DRR that it should not project a profit on any service line, DRR decided that the lower of the two
rates would be used to calculate receivership bills for 2003.

The SLOs submitted their respective Service Line Rate Case memorandums to the DRR Director
for review and signature. Each rate case provided a description of the service line, a discussion


6
 Activity Based Costing is a cost accounting process that measures and then “prices out” all the required resources
used for activities that support the production and delivery of products and services to the FDIC internal and
external customers related to a specific service line.

                                                         5
of the budgeted rate in comparison to the benchmark rate, and a rationale for the rate proposed.
Also, if the SLO’s submission proposed using the benchmark rate, the rate case explained that
the difference between the projected recovery based on using the benchmark rate and the greater
projected recovery based on using the budgeted rate was attributable, in part, to costs related to
program maintenance activities.7 Such program maintenance activities are deemed
nonrecoverable from receiverships according to the FDIC’s Cost Recovery Principles8 (see
Appendix II). Finally, the DRR Director submitted the rate cases to the FDIC Chief Financial
Officer for approval, and the approved rates for each service line were programmed into the
SCBS.




7
  Program maintenance relates to service line activities that, although essential to the effective overall operation of
the Receivership Management Program, are not event-driven and are not as directly related to optimizing specific
net cash flow recoveries for the receiverships. Examples of these activities are statutorily mandated services such as
responding to Freedom of Information Act requests, General Accounting Office and OIG audits, requests for
information from the Congress and other government agencies, updating policies and procedures, and activities
related to keeping the Receivership Management Program prepared to handle future workload.
8
  The FDIC’s Cost Recovery Principles were presented by the Allocation and Recovery Task Force to the FDIC
Operating Committee in March 1998. These principles identify certain expenses as not being chargeable to
receiverships.

                                                          6
RESULTS OF AUDIT

The FDIC’s process for developing service line rates for the SCBS has improved. During 2003,
DRR refined service lines, improved service line benchmarks, and worked with DOF to improve
the format of service line reports for SLOs. DRR is also working to improve procedures related
to budget and business planning and the service costing rate-setting process. However, the 2003
service line rate methodology did not fully consider the impact that selecting a service line rate
would have on receivership billings and cost recovery. Such a consideration would enhance the
FDIC’s ability to document that established rates were fair and reasonable. Specifically,

       •   DRR’s methodology for establishing service line rates did not include an analysis of
           the variance in recovery depending on use of the benchmark rate or the budgeted cost
           rate. Consequently, the rate cases for 11 service lines did not justify the reason for
           service line cost recoveries that ranged from 5 to 95 percent of the service line budget
           when the benchmark rate was used. Further, service line rate cases did not adequately
           consider the effect of program maintenance costs on budgeted expenses. Therefore,
           nine budgeted rates used during 2003 included costs that the FDIC has deemed
           nonrecoverable from receiverships. Finally, the 2003 service line rate methodology
           was to ensure that no service line rate resulted in projected revenue in excess of the
           service line budget. However, excess revenue is projected in one service line, and the
           FDIC General Counsel has not formally opined on the issue of projecting such excess
           revenue (see Finding A: Service Line Rate Methodology).

       •   The Service Costing System has not provided SLOs with adequate cost model reports
           of actual expenses incurred by service line. Therefore, SLOs do not have all the
           necessary tools to effectively manage and analyze costs related to their respective
           service lines, and the SLOs are not able to adequately monitor receivership billings.
           Monitoring receivership billings is warranted given that receivership billings as of
           September 30, 2003, totaled $59,643,670 in comparison to actual costs of
           $153,919,414 for the Receivership Management Program (see Finding B: Other
           Service Line Rate-Setting Matters).




                                                7
                      FINDINGS AND RECOMMENDATIONS

FINDING A: SERVICE LINE RATE METHODOLOGY

DRR’s methodology for establishing 2003 service line rates did not fully consider the impact that
selecting a service line rate would have on receivership billings and cost recovery. Specifically,
DRR’s methodology for establishing 21 service line rates did not require an analysis of: (1) the
difference in recovery depending on use of the benchmark rate or the budgeted cost rate for
11 rate cases, (2) the effect of program maintenance costs for 9 rate cases, and (3) the potential
for recovering greater than the budgeted cost for 1 rate case. Accordingly, the FDIC could
improve the methods by which rates are determined to bill receiverships for administrative
expenses that otherwise are paid by the insurance funds.

Benchmark and Budgeted Rates

The FDIC used two approaches for establishing its calendar year 2003 service line rates in an
attempt to ensure that it set rates that were fair and reasonable. In one approach, the FDIC
contracted with the APQC to provide expertise in developing benchmark service line rates that
were supported by industry standards. Specifically, from February 2002 to March 2003, the
APQC analyzed the FDIC’s existing service lines, worked with FDIC SLTs to identify rates and
benchmarks that could be validated with industry standards, conducted nationwide market
research to develop benchmark rates, and conducted Activity Based Costing to measure and then
price out service lines where market-based rates were not identifiable. The APQC ensured that
the SLOs agreed that the benchmark rates were based on information that fairly represented the
service line.

The FDIC also had its SLTs calculate the budgeted rates for each service line by using the total
budget for each service line less directly billed expenses, divided by the projected workload for
that service line. The service line budget and projected workload were based on information
projecting failures and near failures of financial institutions provided by the FDIC’s Division of
Insurance and Research in consultation with DRR management.

DRR and DOF staff involved in the service line rate-setting process selected the lower of the two
rates based on input from FDIC Legal Division counsel, which advised that no service line
should project a profit by charging a benchmark rate that would recover more revenue than the
budgeted service line cost. As shown in table 2 below, using the benchmark rate for 11 service
lines resulted in the projected recovery of 5 to 95 percent of the related budgeted costs.
However, the rate cases do not provide specific justification for the lower recovery resulting
from use of the lower benchmark rate.




                                                 8
       Table 2: Budgeted and Benchmark Recovery by Service Line
                                                                                         Amount Not
                            Projected 2003        Projected 2003        Basis of Rate  Recovered Using                Percentage
Service Line                Recovery Using       Recovery Using         Used for 2003    Benchmark                       Not
                            Budgeted Rate        Benchmark Rate            Billings         Rate                      Recovered
Franchise Marketing           $ 12,812,461           $ 10,262,350       Benchmark Rate     $ 2,550,111                  20 percent
Customer Service              $ 8,273,424            $ 3,800,000        Benchmark Rate     $ 4,473,424                  54 percent
Valuations                    $ 13,195,008           $ 11,843,712       Benchmark Rate     $ 1,351,296                  10 percent
Closing Activities            $ 8,179,509            $ 7,742,436        Benchmark Rate     $ 437,073                     5 percent
Financial Services            $ 4,329,045            $ 4,906,251        Budgeted Rate      $         0                           -
Asset Sales
 Loans                         $ 11,740,538           $ 36,031,307      Budgeted Rate             $         0                    -
 Owned Real Estate                  871,347              1,037,318      Budgeted Rate                       0                    -
 Securities                       2,013,368              1,006,684      Benchmark Rate              1,006,684           50 percent
 Other Assets                     3,122,620             49,750,223      Budgeted Rate                       0                    -
Subsidiary Management          $ 3,553,725            $ 3,650,425       Budgeted Rate             $         0          100 percent
Asset Management
 Loans                         $ 24,741,790           $   8,379,000     Benchmark Rate            $16,362,790           66 percent
 Owned Real Estate                5,361,090               5,772,000     Benchmark Rate              (410,910)a                   -
 Securities                       3,542,460                 182,280     Benchmark Rate               3,360,180          95 percent
 Contract Oversight               4,182,126                 205,752     Benchmark Rate               3,976,374          95 percent
Litigation/Investigations
 Receivership Litigation       $ 31,870,916           $ 38,907,352       Budgeted Rate            $           0                  -
 Investigations                   8,425,064              9,602,095       Budgeted Rate                        0                  -
 DIR Research                       117,915               117,915b       Budgeted Rate                        0                  -
Receivership Claims
 Asset Claims                  $   5,076,444          $   1,049,265     Benchmark Rate           $ 4,027,179            79 percent
 Other Receivership                5,371,621              4,287,245     Benchmark Rate             1,084,376            20 percent
Oversight Operations
 Receivership Oversight        $  3,977,850           $  4,352,575      Budgeted Rate            $          0                    -
 Employee Benefits                  563,760                532,440      Benchmark Rate                 31,320            6 percent
   Total                       $161,322,081           $203,418,625                                $38,249,897          24 percent
       Source: Approved 2003 Service Line Rates Memorandum dated March 13, 2003.
       a
         The Owned Real Estate Managed service line rate used the benchmark rate even though the benchmark rate was
       higher than the budgeted rate,as discussed in Finding A.
       b
         A benchmark rate was not determined for Research due to the relatively small dollar value. For comparative
       purposes, the budgeted rate was used.




       The FDIC’s 2003 service line rate methodology ensured that the FDIC would not fully recover
       budgeted administrative expenses for those service lines for which the benchmark rate was lower
       than the budgeted rate. As a result, the FDIC projected that it would recover $38,249,897 less
       than the estimated budgeted cost for all the receivership service lines.




                                                             9
We fully acknowledge that there is nothing inherently wrong with the FDIC recovering
$38 million less from receiverships than the estimated budgeted costs for all service lines. If
such a difference is due to, for example, program maintenance cost, excess capacity, or the
FDIC’s own inefficiencies, the difference would be appropriate and fair to the receiverships and
the insurance funds. However, when establishing a service line rate based on a benchmark rate
that is significantly lower than the budgeted rate, the FDIC should make sure the rate is fair and
reasonable for both the receiverships and the insurance funds. Further, analysis of the difference
between projected budgeted costs and projected recovery would provide the FDIC greater
support in justifying the rate-setting methodology in the event of litigation involving charges to
the receiverships for administrative expenses.

Program Maintenance Costs

DRR’s methodology for establishing service line rates did not provide adequate analysis of
program maintenance costs. Consequently, 9 of the 21 service line rates are based on budgeted
amounts that included costs for work that should not be billed to receiverships. Inherent in the
work of each service line are costs deemed nonrecoverable under FDIC Cost Recovery
Principles (see Appendix II). The FDIC Operating Committee has determined that costs related
to program maintenance are not considered “necessary and appropriate” expenses and, therefore,
should not be billed to the receiverships. Program maintenance activities include statutorily
mandated services such as responses to Freedom of Information Act requests and General
Accounting Office and OIG audits; requests for information from the Congress and other
government agencies; updates of policies and procedures; and efforts to keep the Receivership
Management Program prepared to handle future workload.

For 2002 receivership billings, the FDIC calculated service line budgeted rates by using the total
budgeted cost for each service line less expenses billed directly to receiverships. The adjusted
budgeted cost was then reduced by a standard 30 percent in an attempt to account for program
maintenance costs. DRR SLOs stated that the 30-percent reduction used in 2002 was not
specifically calculated for each service line. Rather, DRR management estimated that 30 percent
was a reasonable estimate of the amount of work within the Receivership Management Program
that was nonrecoverable under the FDIC’s Cost Recovery Principles. However, DRR and DOF
concluded that the 30-percent reduction used in the 2002 rate-setting process was not an
adequate method for including program maintenance expenses in the rate case calculations
because it was not based on supportable analysis of the actual program maintenance costs for the
specific service lines.

For 2003, DRR did not apply a standard program maintenance reduction in calculating the
budgeted cost for each service line. DRR staff explained that the FDIC does not currently have a
mechanism in place to adequately capture program maintenance expenses. The rate cases for
service lines for which the benchmark rate had been selected explained that the difference
between the projected budgeted costs and the projected recovery using the benchmark rate was
due in part to activities defined as program maintenance. As previously shown in table 2, the
projected recovery ranged from 5 to 95 percent, depending on the service line. However, rate
cases for the nine service lines for which the budgeted rate was selected did not discuss

                                                10
adjustments for program maintenance. Therefore, the budgeted rates used in 2003 included
program maintenance costs that should not be billed to receiverships. Further, the rate cases
showing that the benchmark rate had been selected did not provide a specific analysis to indicate
how much of the difference related to program maintenance.

A comparison of two rate cases illustrates the inconsistency in the consideration of program
maintenance costs among the service lines. For the Asset Claims service line, the FDIC selected
the benchmark rate of $315 per claim over the budgeted rate of $1,524, resulting in a projected
nonrecovery of $4,027,179 or 79 percent of the service line budget. The rate case explained that
the difference between the benchmark rate and the budgeted cost related, in part, to program
maintenance activities. For the Receivership Oversight service line, the benchmark rate of
$151 was higher than the budgeted rate of $138; therefore, the budgeted rate was approved for
this service line, resulting in a projected 100-percent recovery of the service line budget.
However, this case did not discuss the impact of program maintenance costs on the service line.

The DRR decision to use the lower of the benchmark or budgeted rates was intended to establish
rates that were supported either by industry standards or FDIC-budgeted costs. We recognize
that DRR implemented such a methodology due to the advice of Legal Division counsel.
However, in using the benchmark rates, we believe DRR should conduct an analysis during the
rate-setting process to identify the reason for the selection of a rate that does not recover the
service line budget. Using the benchmark rate without justifying the effect on the recovery of
budgeted costs may not result in fair and reasonable billings for all service lines. A better
approach would be for the SLTs to use the benchmark rate as a basis to support a proposed rate
that is based on an analysis of the difference between the benchmark rate and budgeted cost
recovery. Further, when budgeted costs are not adjusted for program maintenance expenses,
service line budgeted rates may be based on costs that should not be recovered from
receiverships.

Excess Revenue

The FDIC established one service line rate projected to generate billings in excess of the service
line budget. The rate used for the Owned Real Estate Managed service line conflicted with the
Legal Division’s suggestion that projected revenue should not exceed the service line budgeted
costs. For this rate case, the FDIC selected the benchmark rate even though it projected revenue
in excess of the budgeted amount by $410,921. Specifically, the budgeted rate, based on the
projected workload, was $929 per property. However, the benchmark rate of $1,000 per
property was used for 2003. The rate case did not explain the reason for selection of the
benchmark rate. DRR SLT members explained that although they did not technically follow the
Legal Division’s advice, they selected the benchmark rate because it was considered to be a
defensible rate based on industry standards. Further, the projected recovery in excess of
budgeted cost was not considered significant. Although the excess may not be a significant
amount, service line rates should be calculated in a consistent manner to ensure fairness in the
overall rate-setting process.



                                                11
The FDIC’s decision that the lower of the benchmark rate or budgeted rate should be used in
selecting 2003 service line rates was based on the Legal Division’s input that revenue should not
be projected in excess of budgeted costs on any service line. However, DRR did not obtain the
General Counsel’s concurrence on the 2003 rate methodology, and the General Counsel has not
formally opined as to whether using a service line rate that projects excess revenue would
hamper the FDIC in the event of litigation related to administrative costs billed to the
receiverships. Therefore, the FDIC does not yet have a formal opinion regarding a significant
aspect of the rate-setting methodology.

Recommendations

We recommend that the Director, DRR, in establishing 2004 service line rates:

(1)    Direct SLTs to calculate the service line rate using benchmark rates, budgeted rates, and
       other available information that provides a fair and reasonable cost recovery and to
       provide an analysis in the rate case of the difference between the projected recovery and
       the service line budget.

(2)    Direct SLTs, in calculating service line rates, to conduct the analysis necessary to identify
       an appropriate reduction in budgeted service line costs for program maintenance
       activities.

(3)    Request an opinion from the General Counsel regarding the appropriateness of projecting
       excess revenue in calculating service line rates, and once that opinion is received, issue
       guidance that instructs SLTs on how to apply the General Counsel’s opinion in the
       rate-setting methodology.




                                                12
FINDING B: OTHER SERVICE LINE RATE-SETTING MATTERS

Certain rate-setting matters in addition to those involving the FDIC’s service line rate
methodology warrant management’s attention. Specifically, SLOs have not been able to
effectively monitor their respective service lines using the Service Costing System to conduct
variance analyses of budgeted and actual workload and forecasted and actual billing amounts.
Ineffective monitoring occurred because cost model data in the Service Costing System needed
for the SLOs to perform variance analyses are inaccurate and in a format that does not facilitate
use. Additionally, the SLTs have not received training in the use of the Service Costing System
Cost Module. Consequently, SLOs have not proposed service line rate adjustments when cost
variances have occurred due to lower than expected workload.

Variance Analysis and Service Costing System Reports

SLOs have not conducted variance analyses of their respective service lines as prescribed by the
FDIC’s Budget and Business Planning Procedures to determine variances between budgeted and
actual workload and forecasted and actual billing amounts. The expenses billed to receiverships
are based on the actual workload within each service line multiplied by the approved service line
rate. However, costs to the FDIC for work of the respective service lines relate primarily to
salaries and compensation, which are generally fixed costs. Therefore, variances between
receivership billings and actual costs will increase to the extent that actual workload differs from
projected workload. For example, the rate set for the Asset Claims service line is based on a
projected 2003 workload of 3,331 claims multiplied by the approved rate of $315 per claim for a
projected recovery of $1,049,265. However, as of September 30, 2003, only 652 asset claims
had been processed, and only $205,380 ($315 times 652) had been billed on this service line in
comparison to the total actual cost of $2,329,067 reported in the Service Costing System.

To ensure that variances between actual costs and receivership billings can be monitored, the
FDIC’s Budget and Business Planning Procedures provide that service line workload and
expense information from the Service Costing System should be available monthly to SLTs.
However, DOF did not input this information into the Service Costing System Cost Model until
May 2003 because of ongoing enhancements to the Service Costing System. Further, the actual
expense data that were input as of May 2003 were not accurate. Since May 2003, DOF and DRR
have been working together to improve the Service Costing System reporting format and to
ensure accuracy of the data. However, as of September 30, 2003, work to resolve data and report
format issues was still in progress. Consequently, SLTs have been unable to perform effective
workload and expense variance analyses of their respective service lines. As of September 30,
2003, receivership billings totaled $59,643,670 in comparison to actual costs of $153,919,414 as
recorded in the Service Costing System for the Receivership Management Program.

Service Costing System Training

A lack of SLO training in use of the Service Costing System also may have negatively affected
monitoring of the service lines. Only 5 of the 11 SLOs indicated that they had attempted to
access the Service Costing System to manage their respective service lines. The primary reason

                                                13
SLOs gave for not accessing the Service Costing System was that they had not attended training
in use of the system and/or service line reports. Training in use of the Service Costing System
was provided by DOF prior to 2003; however, most of the current Service Line Owners had not
attended those training sessions. The SLOs who had accessed the Service Costing System found
the data in service line reports to be either inaccurate or in a format that was not useful for the
analysis necessary to manage their respective service lines. The SLOs indicated that Service
Costing System training would facilitate their ability to monitor their respective service lines
once the formatting and data accuracy deficiencies are corrected.

Recommendations

We recommend that the Director, DRR:

(4)    Ensure that service line cost data necessary for SLOs to monitor service lines are
       available and that adjustments can be made to receivership billing records in a timely
       manner.

(5)    Provide training to SLOs, in coordination with DOF, on use of the Service Costing
       System Cost Model and/or other service line data made available upon completion of
       ongoing efforts to resolve data and report formatting issues.


CORPORATION COMMENTS AND OIG EVALUATION

On January 12, 2004, the DRR and DOF Directors provided a joint written response to the draft
report. The response is presented in Appendix III to this report. In their written response, DRR
and DOF management concurred with each of the recommendations. These recommendations
are considered resolved but will remain undispositioned and open until we have determined that
agreed-to corrective actions have been completed and are effective. The responses to the
recommendations are summarized below along with our evaluation of the responses.

Recommendation 1: Direct SLTs to calculate the service line rate using benchmark rates,
budgeted rates, and other available information that provides a fair and reasonable cost
recovery and to provide an analysis in the rate case of the difference between projected
recovery and the service line budget.

DRR agrees with this recommendation. DRR stated that it considered all available information,
including benchmarks and budgeted rates, for setting 2003 billing rates. In its rate-setting
analysis for 2004, DRR will document more clearly in its cases an analysis of the difference
between projected recovery and the service line budget for its various rate options. DRR expects
to complete this process by March 31, 2004.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.


                                                14
Recommendation 2: Direct SLTs, in calculating service line rates, to conduct the analysis
necessary to identify an appropriate reduction in budgeted service line costs for program
maintenance activities.

DRR agrees with the need to identify an appropriate reduction in budgeted service line costs for
program maintenance activities. However, the joint response states that it is not currently
possible to accurately estimate an appropriate deduction from service line budgets for program
maintenance activities. According to FDIC management, as the Corporation moves into
monitoring and capturing costs at the activity level, it will then be able to more accurately
estimate a proper deduction for program maintenance costs. This will be possible with the
implementation of New Financial Environment (NFE) cost management. In the interim, pending
NFE cost management implementation, by December 31, 2004, DRR and DOF will explore
options for estimating the costs of these activities and determining reasonable adjustments for
such costs.

We accept management’s position and proposed timing for DRR and DOF to explore options for
estimating program maintenance costs. This recommendation is resolved but will remain
undispositioned and open until we have determined that agreed-to corrective action has been
completed and is effective.

Recommendation 3: Request an opinion from the General Counsel regarding the
appropriateness of projecting excess revenue in calculating service line rates, and once that
opinion is received, issue guidance that instructs SLTs on how to apply the General
Counsel’s opinion in the rate-setting methodology.

In conjunction with its 2004 rate-setting analysis, DRR will consult with the Legal Division on
its proposed rates and obtain an opinion regarding the appropriateness of projecting excess
revenue in setting a billing rate. DRR expects to complete this process by March 31, 2004.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

Recommendation 4: Ensure that service line cost data necessary for SLOs to monitor
service lines are available and that adjustments can be made to receivership billing records
in a timely manner.

DRR is currently working on establishing a process where cost data will be supplied to SLOs on
a monthly basis. This will enable SLOs to monitor their service lines more closely and
recommend billing adjustments in a timely manner. DRR expects to complete this process by
June 30, 2004.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed.


                                               15
Recommendation 5: Provide training to SLOs, in coordination with DOF, on use of the
Service Costing System cost model and/or other service line data made available upon
completion of ongoing efforts to resolve data and report formatting issues.

DRR is currently working on establishing a process where billing and cost data will be provided
to SLOs on a monthly basis. This information will come from a variety of data sources and will
provide SLOs with the ability to monitor closely the performance of their service lines. As soon
as the reports are available, DRR, in conjunction with DOF, will conduct training to explain the
reports and what is expected of SLOs in monitoring their service lines. DRR expects to
complete this process by June 30, 2004.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

Appendix IV contains a summary chart of management’s responses to the recommendations in
this report.




                                               16
                                                                                       APPENDIX I


                       OBJECTIVE, SCOPE, AND METHODOLOGY


The objective of the audit was to assess the adequacy of the FDIC’s process for developing 2003
Service Line Rates for the Service Costing System. Specifically, we determined whether 2003
service line rates were fair and reasonable, accurately calculated, and adequately supported. Our
audit scope included service line rates established for calendar year 2003. We performed our work
from May through November 2003 in accordance with generally accepted government auditing
standards. To accomplish our objectives, we reviewed the following:

       •   2003 Service Line Rate Cases
       •   FDIC Budget and Business Planning Procedures
       •   Service Costing System Cost Model System Users Manual
       •   FDIC Service Billing and Payment Procedures Users Manual
       •   Service Costing 2002 Rates for the Receivership Management Program
       •   Statement of Work for the APQC contract related to developing 2003 Service Line
           Benchmark Rates
       •   APQC Reports issued from March 2002 to March 2003

We interviewed SLOs in DRR and the Legal Division, Legal Division Counsel, DOF and DRR
managers and staff members involved in the service line rate-setting process, and the APQC Project
Manager who worked on the 2003 rate-setting process for the FDIC. We reviewed, analyzed, and
recalculated 2003 Service Line Rate Cases and supporting documentation, verified supporting
documentation related to indirect cost allocations, traced budget templates to approved service line
rate cases, and compared data used in calculating service line rates to actual expenses recorded in the
Service Costing System.


Performance Management

To determine whether DRR had any performance measures that we should consider in this audit,
we reviewed DRR’s 2003 Strategic Plan and the FDIC’s 2002 Annual Performance Plan. DRR’s
2003 Strategic Plan does not include any measures related to the service line rate-setting process.
Although the 2002 Annual Performance Plan lists goals for the Receivership Management
Program, none are directly related to the service line rate-setting process. However, the Annual
Performance Plan includes the following as a major initiative: “During 2003, receivership
management personnel will examine those areas in which FDIC costs significantly exceed
benchmarks and, where necessary, implement appropriate cost-reduction measures to address
those cost differentials.” The Budget and Business Planning procedures drafted during 2003
include procedures to examine areas in which costs significantly exceed benchmarks and to




                                                  17
                                                                                        APPENDIX I


implement cost-reduction measures. The procedures had not been completed at the time of this
audit.


Reliance on Computer-Generated Data

We relied on computer-processed data that we determined to be sufficiently reliable for the purposes
of this audit. The data were processed by commercial-off-the shelf software, including Microsoft
Excel, Microsoft Access Database, Pillar, and Metify. Although we did not perform specific tests to
determine the reliability of computer-processed data, we recomputed data related to budget rate
calculations that had been processed using the Metify software and noted no exceptions.


Internal Management Controls

The Director, DOF, and the Director, DRR, are responsible for setting service line rates. During our
review, a directive was in draft to establish procedures for planning and managing service line
expenses, including the development and implementation of service line rates. We considered the
procedures in our audit work and tested compliance with them to the extent possible. Certain
controls related to conducting variance analyses had not been implemented due to Service Costing
System enhancements that were still in process. These enhancements need to be completed for
internal management controls to be effective.


Summary of Prior Audit Coverage

On March 31, 2003, the OIG issued a report entitled, The Division of Resolutions and Receiverships’
Controls Over Data Input to the Service Costing System (Audit Report No. 03-027). The report
identified data quality issues related to the accuracy and completeness of data used to update the
Service Costing System and the need for additional controls to adequately validate and verify data in
systems that update the Service Costing System. As of September 30, 2003, DRR and DOF had
completed corrective action on two of the report’s seven recommendations and were taking
corrective actions to resolve the remaining recommendations.


Pertinent Laws and Regulations


Federal Deposit Insurance Act

12 U.S.C. § 1821(d)(11)(A) Depositor Preference

Subject to section 1815(e)(2)(C) of this title, amounts realized from the liquidation or other
resolution of any insured depository institution by any receiver appointed for such institution shall
be distributed to pay claims (other than secured claims to the extent of any such security) in the
following order of priority: (i) Administrative expenses of the receiver.

                                                  18
FDIC Rules and Regulations


12 C.F.R. § 360.3 Priorities

Unsecured claims against an association or the receiver that are proved to the satisfaction of the
receiver shall have priority beginning with administrative expenses of the receiver, including the
costs, expenses, and debts of the receiver. Under the provisions of section 11(d)(11) of the Act (12
U.S.C. §1821(d)(11), the provisions of this §360.3 do not apply to any receivership established and
liquidation or other resolution occurring after August 10, 1993.

12 C.F.R. § 360.4 Administrative Expenses

The priority for “administrative expenses of the receiver,” as that term is used in section 11(d)(11)
of the Federal Deposit Insurance Act (12 U.S.C. §1821(d)(11)), shall include those necessary
expenses incurred by the receiver in liquidating or otherwise resolving the affairs of a failed insured
depository institution. Such expenses shall include pre-failure and post-failure obligations that the
receiver determines are necessary and appropriate to facilitate the smooth and orderly liquidation or
other resolution of the institution.




                                                  19
                                                                                      APPENDIX II


                               FDIC RECOVERY PRINCIPLES


As applied to recoveries from receiverships:

   1. Applied consistently to all costs, costs are non-recoverable from receiverships if related to
      Corporate responsibilities and separate from the expenses which are “… necessary and
      appropriate to facilitate the smooth and orderly liquidation or other resolution of the
      institution.”

   2. Costs are not recoverable from receiverships if related to maintaining the readiness of the
      Corporation to discharge its insurance function.

   3. Consistent with prudent application, costs are not recoverable from receiverships if they are
      associated with managing imbalances (for example, staffing imbalances).

   4. Costs are not recoverable if they are related to public policy functions which provide no
      tangible benefits to individual receiverships.

   5. Costs are not recoverable from receiverships if they are systems or other capital-oriented
      expenses whose benefits will be realized in future periods, subject to the following
      conditions:

           a) the costs are below designated capitalization and depreciation/amortization
              thresholds with the future periods benefited extending significantly beyond the
              estimated remaining lives of the receiverships in existence at the time the costs are
              incurred such that there is substantively no cause-and-effect linkage with particular
              receiverships; or

           b) the costs are above designated capitalization and depreciation/amortization
              thresholds; yet, nonetheless fail to satisfy the requirement that there be a
              cause-and-effect basis existing at the receivership level (i.e., these costs will be
              capitalized; however, the related depreciation or rental charge will not be recovered
              from receiverships without a cause-and-effect linkage).




                                                 20
                       Appendix III



CORPORATION COMMENTS
     APPENDIX III




22
                                                                                                                                                    APPENDIX IV

                                               MANAGEMENT RESPONSES TO RECOMMENDATIONS

This table presents the management responses that have been made on recommendations in our report and the status of recommendations as of the date of
report issuance. The information in this table is based on management’s written response to our report.

                                                                                                                                                       Open
 Rec.                                                                     Expected            Monetary       Resolveda :    Dispositionedb :            or
Number         Corrective Action: Taken or Planned/Status              Completion Date        Benefits       Yes or No         Yes or No              Closedc
              In its rate-setting analysis for 2004, DRR will
              document more clearly in its rate cases an analysis of
      1       the difference between projected recovery and the            March 31, 2004         N/A            Yes                No                 Open
              service line budget for its various rate options.
              DRR and DOF will explore options for estimating
              budgeted service line program maintenance costs          December 31, 2004          N/A            Yes                No                 Open
      2       and determining reasonable adjustments for such
              costs.
              In conjunction with its 2004 rate-setting analysis,
              DRR will consult with the Legal Division on its
              proposed rates and obtain an opinion regarding the
      3       appropriateness of projecting excess revenue in              March 31, 2004         N/A            Yes                No                Open
              setting a billing rate.
              DRR is currently working to establish a process
              where billing and cost data will be supplied to SLOs
              on a monthly basis. This will enable SLOs to
      4       monitor their service lines more closely and                  June 30, 2004         N/A            Yes                No                Open
              recommend billing adjustments in a timely manner.
              DRR is working on a process where billing and cost
              data will be provided to SLOs on a monthly basis.
              When the reports are available, DRR, in conjunction
              with DOF, will conduct training to explain the
              reports and what is expected of SLOs in monitoring
      5                                                                    June 30, 2004          N/A            Yes                No                Open
              their service lines.
a
    Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                   management provides an amount.
b
 Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.
                                                                                      23
